No. 20 – 740
In The
Supreme Court of the United States
__________
JIM BOGNET, ET AL.,
Petitioners,
v.
KATHY BOOKVAR, SECRETARY OF PENNSYLVANIA, ET AL.,
Respondents.
__________
On Petition for Writ of Certiorari to the United States Court of Appeals for the
Third Circuit
__________
BRIEF OF RESPONDENT NORTHAMPTON COUNTY BOARD OF ELECTIONS
IN OPPOSITION

Melissa P. Rudas, Esquire
Attorney of Record
Brian J. Taylor, Esquire
Timothy P. Brennan, Esquire
Richard Eugene Santee, Esquire
669 Washington Street
Easton, PA 18042
(610) 829-6350
mrudas@northamptoncounty.org
Counsel for Northampton County
Board of Elections

INTRODUCTION
The 2020 General Election is over. All fifty states conducted fair and secure elections
and certified results during a global health pandemic. Hundreds of thousands of United
States citizens selflessly and faithfully served as poll workers and election officials to permit
the American people to choose its representatives in local, state, and federal government.
Like the rest of this country, the County of Northampton administered a fair and
legal election in 2020. Its poll workers, election staff, election administrators, and support
staff tirelessly devoted themselves to providing every qualified voter an opportunity to vote
and legally and accurately counted those votes.

Over 75% of Northampton County’s

electorate exercised their right to vote and expressed their preference for representation in
government alongside their fellow Pennsylvanians.
Unfortunately, in the midst of conducting the most recent election, Respondent was
subject to and saddled with the burden of defending numerous meritless lawsuits, including
an action in the Middle District of Pennsylvania where Plaintiff’s counsel in that case
conceded during televised oral argument that there was no evidence of any wrongdoing in
Northampton County. Petitioners’ eleventh-hour filing in this matter similarly attempted
to disrupt the election across the Commonwealth with unfounded claims of perceived
unfairness, ill-conceived legal theories, and dubious assumptions.
In their attempt to manufacture an argument that they had standing to launch this
belated contest, Petitioners claimed in their Complaint for Declaratory and Injunctive Relief
that counties which are more “urban,” such as Northampton County, had a higher mail-in
ballot

request

rate
1

than

more

“rural” counties, like where the individual voter Petitioners resided. See Complaint for
Declaratory and Injunctive Relief, ¶¶41-50. Without any legal support, the individual voter
Petitioners claim their votes would be “diluted” by the Deadline Extension ordered by the
Pennsylvania Supreme Court because of the difference in the mail-in ballot request rate
among so-called “urban” and “rural” counties. See Complaint for Declaratory and Injunctive
Relief, ¶¶71.
Rather, the individual voter Petitioners essentially ask this Court to afford their votes
preference and greater weight than votes from Northampton County because Petitioners
reside in a more “rural” county. Petitioners’ theory, clumsily expressed in divisive and
loaded rhetoric, is devoid of factual and legal support and belongs relegated to a past
century.
There is no evidence the Deadline Extension of mail-in ballots ordered by the
Pennsylvania Supreme Court caused any harm to Petitioners. The 2020 General Election
results were tabulated and certified without ballots subject to the Deadline Extension. If
any individuals suffered a cognizable harm in the most recent election, arguably it was those
voters who were effectively disenfranchised when their votes were lawfully received within
the Deadline Extension but not made part of the certified election results, not Petitioners.
ARGUMENT
This case is before the Court in the procedural posture of an appeal from the denial
of a motion for temporary restraining order and request for preliminary injunctive relief.
To obtain a preliminary injunction, a movant must establish that the movant is: “(1) likely
to succeed on the merits; (2) likely to suffer irreparable harm in the absence of the
2

preliminary injunction; (3) "that the balance of equities tips in [movant’s] favor; and (4) that
an injunction is in the public interest.” Republican Party of Pa. v. Cortés, 218 F. Supp. 3d
396, 404 (E.D. Pa. 2016) (citing Winter v. Nat. Res. Def. Ctr., 555 U.S. 7, 20 (2008)).
Petitioners are unable to establish harm entitling them to the injunctive relief sought which
is the basis of this appeal. None of the votes received within the extension period ordered
by the Pennsylvania Supreme Court were included in the certified results. Candidates won
and lost based on votes received on or before 8 p.m. on Election Day.
The Third Circuit correctly determined Petitioners lack standing in this matter. This
case is moot and non-justiciable. The 2020 General Election is over; it is time for this case
to be over.
Even if this matter were not moot, among the several reasons Petitioners do not have
standing, the proffered class of "rural" and "urban" voters is entirely amorphous and not
capable of administration. How would a court distinguish a county such as Northampton
County

from

Carbon,

Centre,

Chester,

Monroe,

Schuylkill,

or

Westmoreland

County? Further, it is likely that among such counties there are both “rural” and “urban”
areas and voters, if such classes could be defined. A claim may be non-justiciable if "the
duty asserted c[ould not] be judicially identified and its breach [could not be] judicially
determined, and . . . protection for the right asserted c[ould not] be judicially molded." Baker
v. Carr, 369 U.S. 186, 198 (1962). Petitioners failed to proffer a manageable standard of
review to evaluate their unfounded claims of vote dilution. This Court should not allow this
continued assault on democracy.
In further support of this Opposition, Respondent Northampton County Board of
Elections adopt the reasoning of the Third Circuit Court of Appeals on all issues that
3

support denial, and Respondent also adopts the arguments made in all respondent briefs
advocating for denial of this petition.

CONCLUSION
For the foregoing reasons, Respondent Northampton County Board of Elections
respectfully request that this Petition be denied.

______________________________
Melissa P. Rudas, Esquire
Attorney of Record
Brian J. Taylor, Esquire
Timothy P. Brennan, Esquire
Richard Eugene Santee, Esquire
669 Washington Street
Easton, PA 18042
(610) 829-6350
(610) 559-3001 (Fax)
mrudas@northamptoncounty.org
Counsel for Northampton County Boards of
Elections

4

